No. 20-1093

IN THE

Ouprente Court of the Eniteb isitateit
JUST ENERGY MARKETING CORP., ET AL.,

v.

Petitioners,

DAVINA HURT AND DOMINIC HILL,
INDIVIDUALLY AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,589 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 28, 2021.

( 1Cohn Casey Mogan
Wilson-Epes Printing Co., Inc.

